No.
IN THE SUPREME COURT OF THE UNITED STATES
UNITED STATES FISH AND WILDLIFE SERVICE, ET AL.,
PETITIONERS
V.

SIERRA CLUB, INC.
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the PETITION FOR A WRIT OF CERTIORARI, via e-mail and first-class mail, postage
prepaid, this 25th day of October 2019.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certif, that the document contain 8969 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
October 25, 2019.

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-000 1
(202) 514-2217
October 25, 2019
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin's phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

UNITED STATES FISH AND WILDLIFE SERVICE, ET AL.,
SIERRA CLUB, INC.
Reed W. Super, Esq.
SUPER LAW GROUP, LLC
180 Maiden Lane
Suite 603
New York, NY 20038
212-242-2355
reedsuper1awgroup.com

